<html>
<title> - REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
       REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                (109-53)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-268                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Rosenker, Mark V., Acting Chairman, National Transportation 
  Safety Board...................................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    19
Johnson, Hon. Eddie Bernice, of Texas............................    21
Oberstar, Hon. James L., of Minnesota............................    24
Salazar, Hon. John T., of Colorado...............................    54

              PREPARED STATEMENT SUBMITTED BY THE WITNESS

 Rosenker, Mark V................................................    26

                       SUBMISSIONS FOR THE RECORD

 Rosenker, Mark V., Acting Chairman, National Transportation 
  Safety Board:

  Resposes to questions from Rep. Carnahan.......................    33
  Responses to questions from Rep. Millender-McDonald............    40


       REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                        Wednesday, March 8, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Aviation, Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2167, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the committee] presiding.
    Mr. Mica. Good morning. I would like to call this hearing 
of the House Aviation Subcommittee to order.
    This morning's hearing will focus on NTSB reauthorization. 
Order of business is, we will have opening statements by 
members. We have one witness in this hearing this morning, and 
we will hear from the witness, and proceed hopefully in an 
expeditious manner.
    I'll start with my comments and then will yield to other 
members. Today we will receive testimony on the National 
Transportation Safety Board reauthorization proposal. The 
Board's current authorization expires on the 30th of September 
2006. The NTSB is a small but important part of our Federal 
Government. It has an annual budget of $76 million and a staff 
of just around 400 people.
    We all know that the NTSB makes critical contributions to 
our Nation's safety each year. In the United States, the three 
year average commercial aviation accident rate is .017 
accidents per 100,000 departures, which means that the accident 
rate is equivalent to one fatal accident for every 15 million 
passenger carrying flights.
    It's an absolutely amazing record by any standard. I 
believe this unprecedented aviation safety record is in part 
due to the outstanding work over the years by hundreds of NTSB 
professionals, as well as the Federal Aviation Administration 
and our aviation industry.
    But even with this outstanding safety record in commercial 
air transportation, we must continue to work toward making the 
system even safer, especially as demand and congestion 
increase. Since its creation in 1967, the NTSB has investigated 
more than 124,000 aviation accidents and at least 10,000 
accidents in other transportation modes. As a result of these 
investigations, the Board has issued almost 12,000 safety 
recommendations and over 82 percent of those have been adopted.
    The NTSB also serves as the court of appeals for any 
airman, mechanic, mariner, whenever certificate action is taken 
by the FAA administrator or by the U.S. Coast Guard Commandant.
    I would also like to point out that last year marked the 
Board's 15th anniversary of its ``most wanted list'' of 
transportation safety improvements. I believe this is a tool 
that has served the public well. In fact, over the past 15 
years, 85 percent of the more than 260 recommendations that 
have been placed on the list have been accepted and 
implemented.
    The Board's three year reauthorization request includes 
additional funding, additional staff and some statutory 
changes. The budget request of $79.6 million is $2.8 million 
above the fiscal year 2006 level. This increase is related to 
pay raises, some benefit increases, inflation and a proposal to 
merge the NTSB's $2 million emergency fund into its regular 
salaries and expense accounts.
    The fiscal year 2008 and 2009 authorization levels 
requested by the NTSB are based on 475 full time equivalents. I 
understand the Board has determined through a human capital 
forecast conducted earlier this year that 475 is the minimum 
number of full time employees needed to effectively and 
efficiently meet the mission and support efforts that are 
anticipated by the Board.
    Finally, the NTSB has requested three statutory changes. 
These requests pertain to the Board's contracting authority, 
its authorization and use of appropriations and payment for the 
services of the DOT Inspector General.
    We look forward to hearing from the Acting Chairman on 
these issues as well as an update on the NTSB Academy and other 
relevant matters important to our Subcommittee.
    I am pleased now to recognize the Ranking Member of the 
Subcommittee, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. Mr. Chairman, I will 
enter my full statement into the record, but first let me thank 
you for calling the hearing today. I want to welcome our 
witness here before us.
    As you noted, the NTSB was created during 1966, and its 
main mission then and as it remains today is to independently 
investigate accidents in all transportation modes. In 1974, to 
further ensure the NTSB would retain its independence, Congress 
re-established the Board as a totally separate entity distinct 
from the DOT.
    Since its inception, Mr. Chairman, as you noted, the NTSB 
has investigated more than 124,000 aviation accidents and over 
10,000 surface transportation accidents, making it one of the 
world's premier accident investigation agencies.
    The NTSB's recommendations and its vigilance on safety 
issues result in improvements in the way we conduct the 
business of transportation in all modes. While the NTSB's work 
in aviation gets all the headlines and the attention of the 
American people, when a tragedy occurs, it should not 
overshadow the important work the Agency performs in pipelines, 
maritime, rail, truck and automotive transportation.
    To maintain its position as the preeminent transportation 
investigative agency, the NTSB must have the resources 
necessary to handle the increasingly complex accident 
investigations and also to adequately train its staff. Mr. 
Chairman, as you know, the President's fiscal year 2007 NTSB 
budget request of $79.6 million provides for 99 fewer full time 
equivalent staff positions than requested. In order for the 
Agency to do its job, they must receive adequate funding from 
the Congress of the United States. I want to tell you, Mr. 
Chairman, I have a deep interest in seeing that the Agency 
receives an increase in its budget in order to carry out the 
mandates that the Congress has given to them.
    I look forward to hearing from our witness today about not 
only the current status of the Agency but the budget request 
and the level of staffing that you feel is important in order 
to carry out your mission.
    With that, Mr. Chairman, I would yield back the balance of 
my time.
    Mr. Mica. I thank the gentleman.
    Other opening statements? Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman.
    I simply want to say that I appreciate the work that NTSB 
has done over the years. A lot of people don't understand what 
the NTSB does throughout the course of the year, but their work 
is very, very important and I intend to support them with any 
reasonable request that they make. I think almost everybody on 
this Subcommittee feels the same way, and thank you for calling 
this hearing.
    Mr. Mica. Thank you.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and Ranking Member 
Costello, for holding this hearing about this reauthorization 
of NTSB.
    The NTSB is charged with the vitally important task of 
investigating civil aviation and other significant 
transportation accidents. These investigations provide vital 
information about the cause of these incidents and hostile 
actions that can be taken to prevent future accidents and their 
human and economic costs.
    The work of this Agency is critical in the ongoing effort 
to make all modes of transportation in the U.S. safer. I look 
forward to the questions and discussion with the witness, 
Chairman Rosenker. I also look forward to working with my 
colleagues on this reauthorization to ensure that the NTSB has 
the resources and the reforms needed to continue to advance the 
safety in transportation in the United States.
    Mr. Mica. I thank the gentleman. Any other opening 
statements? Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. I want to 
thank you and the Ranking Member for holding this important and 
timely hearing for the reauthorization of the National 
Transportation Safety Board.
    As the primary agency charged with investigating 
significant transportation accidents amongst our various modes 
of transportation, the NTSB serves as a vital component of our 
Nation's transportation system. Since its creation in 1967 as 
an independent agency, it has investigated over 130,000 
accidents across various modes of transportation and issued 
over 12,000 safety recommendations, of which 82 percent have 
been adopted by the transportation community. This speaks well 
for the Board.
    Without question, our Nation's transportation system stands 
as one of the safest in the world, thanks in large part to the 
diligent efforts of the National Transportation Safety Board. I 
welcome our witness and I fully support the three areas of 
concern. I hope that we will have no difficulty at all in 
reauthorizing this Board, which will continue to give us 
insight into their activities and the activities of which we 
take our safety alerts from.
    Thank you and I yield back.
    Mr. Mica. Any additional opening statements? No further 
additional opening statements.
    We will turn to our only panel and our only witness today, 
who is Mark Rosenker, who is the Acting Chairman of the 
National Transportation Safety Board. Welcome and you are 
recognized.

   TESTIMONY OF MARK V. ROSENKER, ACTING CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Thank you, Mr. Chairman. And I thank the 
members for those kind comments on behalf of my entire staff 
and my colleagues at the Board.
    Good morning, Chairman Mica, Ranking Member Costello and 
distinguished members of the Aviation Subcommittee. As Acting 
Chairman of the National Transportation Safety Board, I am 
pleased to appear before you today in support of our request 
for reauthorization. I have submitted a more comprehensive 
statement for the record.
    I am very proud of the National Transportation Safety 
Board. For nearly four decades, the NTSB has been at the 
forefront of transportation safety issues. The Board enjoys a 
well-earned reputation as the most effective and authoritative 
independent safety body in the world. The men and women who 
make up the NTSB very simply are the best in the business.
    I am delighted to be serving as the Acting Chairman of the 
NTSB at such an important time for the Board. Our critical 
mission, as you know, is to investigate transportation 
accidents to determine what happened and why, and make safety 
recommendations so that future accidents can be prevented. Our 
job is to work with Congress to ensure that the Board maintains 
the technical staff and investigative tools that are needed to 
confidently and efficiently conduct the thorough and unbiased 
investigations that the public deserves and Congress has come 
to expect.
    Since our last reauthorization, we have investigated more 
than 4,500 aviation accidents and hundreds of surface 
transportation accidents. During this time, we published more 
than 5,000 aviation accident briefs, 11 major aviation accident 
reports, 18 highway accident reports, 31 railroad reports, 10 
marine reports, 5 pipeline reports, 4 hazardous material 
reports and 7 other studies and special reports.
    Since the beginning of fiscal year 2003, our laboratories 
have read out 187 flight data recorders, 203 cockpit voice 
recorders and performed 458 wreckage examinations. During this 
time period, the Board has issued more than 450 
recommendations.
    We have also recently made some significant leadership 
changes at the Board. In March of 2005, Mr. Joe Osterman began 
serving as our Board's Managing Director. Mr. Osterman is 
effectively leading a highly talented professional management 
team. And since becoming the Acting Chairman, I have focused 
the Safety Board's staff priorities on the timely completion of 
investigations and the production of relevant accident reports.
    During the past year, the Board has changed personnel in 14 
of the top 24 leadership positions. We are currently actively 
recruiting a Chief Information Officer, who will join the 
Agency's management team with the responsibility of managing 
the Agency's information infrastructure. We are tightening the 
performance management system throughout the Agency, and have 
focused our efforts on leadership, communication and the 
Board's primary mission of investigations.
    The Safety Board is asking for authorized resource levels 
capable of funding 399 full time equivalent positions for 
fiscal year 2007, and for 475 FTEs in both fiscal years 2008 
and 2009. We have also asked for a few other proposals.
    The Board's last reauthorization legislation provided the 
authority for the NTSB to enter into contracts when necessary 
to expedite an investigation. We are grateful to have been 
entrusted with this special exemption to competitive 
contracting rules, and we have judiciously used this authority, 
mostly for relatively small contracts for investigative 
services. This important authority expires on September 30th of 
2006. We are asking that the sunset provision be deleted so 
that the special contracting authority becomes a permanent part 
of our legislation.
    The Board also asks to be authorized to handle 
reimbursements in the same manner it currently handles Academy 
course fees. Occasionally, we are reimbursed by third parties 
for accident services those parties are required to provide, 
such as disaster mortuary services. And we sometimes agree to 
conduct accident investigations on a reimbursable basis.
    Without a legislative change, these reimbursements often 
must be redeposited into the Treasury, unavailable for the use 
of the Board. We are asking that we be allowed to treat 
reimbursements as no-year money, so that these funds can remain 
available until expended.
    The Board also has a proposal that concerns paying for the 
services of the DOT Inspector General. As you know, the 
Inspector General is authorized to review the financial 
management, property management and business operations of the 
Board. The IG is reimbursed by the Board for the costs 
associated with carrying out these activities.
    We are asking that in lieu of the Board reimbursing the IG, 
the IG's office be appropriated directly for these activities. 
This would facilitate better resource management and I am 
pleased to report that the DOT Inspector General concurs with 
our proposal.
    Our last proposal concerns how to authorize appropriations 
for our training center as part of the broader authorization 
for the Agency, rather than as a separate or distinct entity. 
We are actively working to more fully integrate the center into 
our overall mission and programs. We believe that a single 
authorization is consistent with this goal. In addition, we 
propose incorporating the content of the training academy's 
annual report into the Board's annual report to Congress.
    When we were last authorized, our training academy in 
Ashburn, Virginia, had not yet been opened. Although it has 
been operational for just over two years, we are pleased that 
the Academy has made great strides in developing and delivering 
high quality programs for the transportation community.
    During fiscal year 2005, we offered 31 programs, 14 of 
which were designed specifically for NTSB employees. Over 1,600 
participants attended these programs and the Board collected 
over $600,000 in tuition and fees from the attendees. 
Nonetheless, Safety Board management has significantly revised 
the philosophy for the Academy and has created an ambitious 
business plan to develop and sustain programs through 
partnerships and contracting opportunities that will reduce the 
demands on NTSB investigative resources. The Academy will rely 
more heavily on outside instructors and it will provide greater 
training opportunities for all NTSB staff.
    We will also work with and review the operations of other 
Government training facilities to ensure that we benefit from 
their experience and best practices. One of our goals is to 
more tightly integrate the Academy into the Safety Board's 
operation and ongoing work.
    As I close, I want to assure you that we are working hard 
to ensure that the people and resources of the Board are well 
managed. In fact, I am particularly pleased to share with you 
that in each of the last fiscal years, our timely and accurate 
financial statements have received clean audit opinions. 
Important things are happening at the Safety Board every day. 
But we need the continued support of Congress to ensure that we 
continue to achieve your goals and our goals as well.
    I thank you for the opportunity to appear before you today. 
I am happy to respond to any questions you may have.
    Mr. Mica. Thank you, and we'll go through a couple of 
questions. I'll start out by asking a little bit about this 
1999 Rand study. Maybe you could give us an update on what NTSB 
has done with respect to implementing some of their 
recommendations. One of them was the need for, I believe, a 
cost accounting system software analysis, better utilization. 
You spoke a little bit about some employee training programs 
for the Academy. Maybe you could cover a couple of their 
concern items.
    Mr. Rosenker. Yes, Mr. Chairman, certainly. A lot has been 
done since seven years ago when that report was published and a 
lot of progress has been made. Specifically in the area of the 
cost accounting software, there's been changes implemented in 
cooperation with our partner who does payroll work for us, the 
Department of Interior. It's something called Quick Time. What 
that will ultimately do, when we have it fully implemented is 
to provide specific cost accounting areas so that we understand 
the amount of time and resources that are being spent on each 
one of the investigations at which we are looking.
    Now, of course, it takes time to do that type of thing. We 
just implemented Quick Time last year, and of course we have to 
understand what the capabilities are. We are also working very 
closely with both management and our labor to make sure that we 
understand exactly what we need to do as far as parameters to 
be put into that Quick Time program to get the best bang for 
the buck. Unfortunately, it is a very costly program, sir.
    Mr. Mica. That might raise a question about your ability to 
do cost accounting of different activities. You talked about 
accident investigation. The Academy has also raised questions 
about its operation and finance.
    Can you tell now what it does cost to operate the Academy? 
You spoke of some revenues that were received. What are those 
figures now, the cost to operate the Academy and then what kind 
of revenues are coming in?
    Mr. Rosenker. Well, there are fixed costs to the Academy, 
which is primarily the lease, and that's about $2.5 million a 
year. From there on we have some very small amount of personnel 
that are dedicated to it. I've reduced it. When I became the 
Acting Chairman, we went from nine employees down to five, 
which significantly reduced--
    Mr. Mica. But you testified that you are talking about 
contracting some of those--
    Mr. Rosenker. Yes, sir.
    Mr. Mica. That's also a cost.
    Mr. Rosenker. Yes, sir. But what we want to do is try to 
make partners out of those contractors at the same time. I'm 
trying to--
    Mr. Mica. So are you going to put a dollar, if we are going 
to do some cost accounting on the Academy, what's the total 
figure? You've $2.5 million in lease. What's your total?
    Mr. Rosenker. It's approximately $3.5 million. We've been 
able to bring down any of what we would call the deficit to 
something close to $150,000 for this fiscal year by reducing--
    Mr. Mica. So what's your revenue?
    Mr. Rosenker. Revenue for fiscal year 2005 was a little 
over $630,000.
    Mr. Mica. Again, trying to get a handle on some of the 
costs.
    And then the question, you said you'd begun some successful 
employee training efforts through the Academy. So that is 
another change underway?
    Mr. Rosenker. Yes, sir. What we want to do is try to 
improve the training capabilities, and this was a 
recommendation, of course, from the Rand Report as well. They 
suggested that we need significantly more training programs. 
We're trying to do this internally, because when we do it 
internally, it becomes a more reasonable expense. Otherwise, 
we'd be sending people TDY, and they'd be away from the office. 
We have the capability because of the infrastructure we have at 
the Academy to not only learn but at the same time be able to 
make phone calls back and stay in touch with the office.
    The kinds of programs we're looking at are management 
programs. We're also looking at more advanced technical 
training in fields of avionics, composites and new aviation 
technologies. Those of course would be taken care of by finding 
new, leading edge instruction and curriculum from universities, 
institutions and the private sector in general.
    Mr. Mica. Let me do a couple of quick questions. I want to 
get to some other members about safety recommendations and 
investigations.
    The number of flights that we've had, the number of 
passengers in commercial aviation since 1991, without a major 
accident, it's been an absolutely phenomenal record. In fact, 
we're working now against probably just the law of averages.
    One of my concerns is if we do see an incident, where we're 
going to have one, we've seen a number of serious runway 
incursions, most recently in Los Angeles, Boston. NTSB came out 
and characterized the FAA's initiative to address runway 
incursions as ``unacceptable.'' Can you elaborate on this? 
Eventually our luck is going to run out. This, again, the 
congestion and incursion seem to be an area where you have some 
concerns and we have some concerns.
    Mr. Rosenker. Mr. Chairman, you're right on target with 
that question and I thank you for asking me that. We believe 
that runway incursions are a significant danger to the flying 
community today. We have made recommendations to the FAA and 
yet, again, they continue to believe that there are other 
methods that they can use to alleviate these incursions, while 
our recommendation states that a direct communication to the 
cockpit is the quickest and best way to prevent runway 
incursions from happening.
    Now, in fairness to the FAA, they are testing some of these 
types of procedures. But we still believe that more needs to be 
done and more needs to be done in an expeditious way.
    Mr. Mica. Just finally, we've seen also a shifting offshore 
of some of the activities. Someone told me, I think 54 percent 
of the maintenance is done now overseas. We're seeing more 
foreign manufactured aircraft in the United States. I guess 
Airbus has overtaken us. All our RJs are produced just about 
all out of the country.
    Does NTSB have sufficient expertise and also ability to 
deal with these products that are produced some place else and 
keeping a handle on, again, what we're seeing emerging?
    Mr. Rosenker. Mr. Chairman, we work very hard to stay on 
the cutting edge of technology and what's happening in each one 
of the modes. We work very closely with the manufacturers and 
the operators to understand the designs, to understand the 
maintenance programs, to understand where the failures are 
potentially coming from and when they actually come, understand 
what happened.
    So we work, as I say, very closely with these 
manufacturers. I'm comfortable with the relationships that we 
have with them. When in fact accidents occur, the manufacturers 
and the operators are part of that investigation process.
    Mr. Mica. Just one final thing. Maybe you can give me some 
response, you don't have to do it here. I saw that 90 percent 
of, well, most of your resources are used in aviation 
investigations. And I saw a statement that only 13 percent of 
your staff are working in the highway area.
    There are 42,000 deaths, 40,000 plus each of the last three 
years. I know 120,000 mostly Americans have died. Of course, 
we've had only a handful of aviation accidents, and we want to 
keep it that way.
    But I'd be interested in any long term ideas to deal with, 
again, the mounting traffic fatality and injury count.
    Mr. Rosenker. Mr. Chairman, 43,000 Americans die every 
year, as you say, 3 million are injured, there are 7 million 
accidents that occur in the United States. This is probably the 
worst, worst transportation challenge that we look at as a 
Nation. I believe we can do more.
    Now, again, at the NTSB, with a group of only 400 folks, 
and a very small group that deal in the highway issues, we take 
a look at the macro issues. Highway investigations are normally 
done at the State, county and local level. We see reports. When 
we begin to take a look at trends and we believe we can make a 
difference in a national trend, that's when we step in.
    One of the things we're looking at right now, and where we 
believe we can make a significant difference, is in young 
people getting involved in accidents. The issue is restricting 
cell phones when you're learning how to drive. That is 
obviously a skill that you must learn and you should not be 
distracted while you are learning how to drive. We are working 
very, very closely with the states to get a provision within 
their graduated driver's license program that will restrict 
people that are operating in these GDL programs from using a 
cell phone or other digital text messaging devices, that type 
of thing, while they're learning how to drive. That will have a 
national impact on young peoples' deaths, young people's 
accidents, young people's injuries.
    That's the type of thing we are working on.
    But if I could go one step further, I personally believe 
that we're coming into a new era. We're in an era where we can 
begin the process of preventing the accident, and that is by 
utilizing technology. Things like electronic stability control 
becoming features of the automobile, standard equipment, from 
preventing the rollover, things like short range automotive 
radar that will actually stop the automobile before it strikes 
something.
    We can get into the business, if we can work hard and 
advocate with the manufacturers that technology is the way of 
the future and we can begin to prevent the accident rather than 
continuing to focus on mitigating the results of the accident.
    Thank you, sir.
    Mr. Mica. Thank you, and as I said, I hope to continue that 
dialogue on that issue.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Rosenker, I mentioned in my opening remarks that we 
want to make certain that you have the resources necessary to 
have adequate staffing levels to carry out your mission. It's 
my understanding from your testimony that you currently have 
396 full time staff at the Agency, and your authorization 
request level is based upon staffing at 475 full time staff 
members.
    Is that correct?
    Mr. Rosenker. Yes, sir, that's in the 2008, 2009 request. 
The 2007 request, of course, brings us to the level we were 
talking about.
    Mr. Costello. Now, tell me, let's assume your request is 
granted and you get to a staffing level in your 2008 and 2009 
request of 475. How will that break down? How many 
investigators will you have versus support staff and so on?
    Mr. Rosenker. Currently we have approximately 209 what we 
would call badge-carrying investigators. An additional 74 are 
what we would characterize as critical mission. Those would 
include our transportation disaster assistance people. They go 
out onto the location and work with the families in dealing 
with them after a tragic accident.
    It would also include our public affairs, who continues to 
work with the media to make sure the American people understand 
this is an accident, and not a tragic issue of criminal intent.
    Also, we have a function that includes the administrative 
law program. That group of people is the appeals court that was 
described, I believe, in your opening statement. That is a very 
important mission. When airmen, when mechanics, when seamen 
lose their licenses, we are the appeals process. That's a 
critical mission of the NTSB.
    In addition to that, we have a number of folks that write 
the reports. We come to the area where we came up with a 
probable cause and a determination. But unless these reports 
are written in a way that in fact conveys the messages, all we 
have are investigators' notes.
    And finally, probably one of the most important aspects of 
what we do, is the folks that deal with our recommendations and 
become part of the advocacy team. These are the people that 
make sure that at the State level, the local level, at the 
operator's level, at the Federal level, that the 
recommendations are monitored on a daily basis to make sure 
that we can get them implemented. Because without 
implementation, all we have is a probable cause, and we have a 
severe gap in safety.
    Mr. Costello. You mentioned in your testimony that the 
Agency has significantly revised the philosophy for the Academy 
and that was in response to Congressional concerns. I wonder if 
you would elaborate as to what you mean by that.
    Mr. Rosenker. Yes, sir. We depended a great deal on 
internal staff work. Our folks, as I said earlier in my 
testimony, I believe are the best in the business. 
Investigators are unique. And when they teach these basic 
investigation courses, they impart a lot of their own personal 
experience and knowledge. Now, that's a valuable thing to 
impart. But if it was at the cost of being productive and 
continuing in a timely resolution of an investigation, it may 
well be too much of a price to pay.
    So we have made a philosophical change. We believe that we 
can still use on a guest lecturer basis, our best and our 
brightest investigators to go out and maybe lecture for two or 
three hours at a basic investigation course. But that same 
basic investigation course could be taught by a partner in this 
program, a university, a technical training program, and 
perhaps even industry. We've got the curriculum already 
developed. So it's now just continually updating it and 
providing it to an instructor.
    So that's one of the philosophical changes we have decided 
to make. We also, not only have the courses that we are 
teaching ourselves, but we believe we have an opportunity to 
teach others in the transportation community, foreign students, 
people that are from other agencies. We work very closely, for 
example, with the FBI. We work very, very closely with other 
Federal agencies as NASA and the FAA. So we have an opportunity 
to teach those people, as well, about the techniques that we 
use in an accident investigation. We believe we can also use 
partners in that program as well.
    In the long run, I believe this is going to be a real 
market change. It will provide additional productivity, and 
better courses. And also, we need to be able to teach our 
investigators the leading edge technologies. We will be looking 
for the best and brightest to come in and help us do that as we 
move into new issues like composites and avionics, fly by wire.
    Mr. Costello. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Chairman, good to have you with us today. Thank you for 
the good work you all do.
    I wanted to make inquiry regarding the number of 
investigators, but my friend from Illinois has already touched 
on that. You said there are 209 investigators, correct?
    Mr. Rosenker. Yes, sir.
    Mr. Coble. Is that group broken down into certain specialty 
groups, or are they all just rank and file investigators?
    Mr. Rosenker. No, sir, they are specialists. Actually, our 
group, it's amazing for the size of our organization the number 
of advanced degrees that we have. Approximately a third of our 
group have advanced degrees--excuse me, 25 to 30 percent, I'll 
give you that exact figure. It's a very high number.
    Mr. Coble. The Chairman mentioned very briefly the Academy. 
What constitutes eligibility for enrollment in the Academy?
    Mr. Rosenker. Although we have capability of giving 
continuing education credits, I think we may have a misnomer in 
the using of the word ``academy.'' We're probably a better 
training center than we are an academy for higher learning, if 
you will, sir.
    People that are enrolling in the programs right now come 
from industry, and they come from other agencies within the 
Government. And actually, we have a substantial number of our 
own people going through the courses themselves. Many of those 
courses are in the management side of it.
    Mr. Coble. So I guess ongoing, some group may enroll for 
two weeks, some for a month?
    Mr. Rosenker. Yes, sir, that's exactly right. And foreign 
students as well. We've taught a significant number of foreign 
students the accident investigation courses and the techniques 
that we use specifically so they will understand how we operate 
if we are invited to participate in an accident investigation 
in their country.
    Mr. Coble. Mr. Chairman, are the instructors or the 
professors at the Academy, are they NTSB employees?
    Mr. Rosenker. In some of those courses, they are. What 
we're trying to do is wean them off of that, because we believe 
that we can do the work just as well with outside instructors, 
professional instructors.
    Mr. Coble. How does the NTSB, Mr. Chairman, propose to 
cover the operating costs, including costs of developing new 
courses, et cetera?
    Mr. Rosenker. Part of that will be in a partnership process 
and in our business plan. The other part would be making sure 
that we've got a fair market value on our product. I believe we 
could raise the prices to the tune of 10, 15, 20 percent. Early 
on, we may have been giving this product away much too 
inexpensively.
    Mr. Coble. You mean raising prices for enrollment?
    Mr. Rosenker. Of the tuition, yes, sir.
    Mr. Coble. Finally, Mr. Chairman, let me ask you this. I've 
been advised that there are currently 807 open recommendations 
with a number of investigations. If you will, tell us what this 
means? Is it good, bad, indifferent?
    Mr. Rosenker. Yes, sir. What that means is, safety is not 
being well served with that 800 and some odd recommendations 
not being implemented. We've been working very hard, but we are 
not the only people that have been working very hard. I will 
give credit to my predecessors, beginning with former Chairman 
Jim Hall, who began an aggressive program to get 
recommendations implemented.
    As I said earlier, the problem is, after we've come up with 
the probable cause, the real challenge is to get the operator, 
the manufacturer, the Government entity, to listen to what 
we've had to say and to implement it. We've done a good job 
when they are finally implemented. We're up now to 83 percent 
of our recommendations getting implemented. Matter of fact, our 
most wanted, which are the most challenging of our 
recommendations, we're at 85 percent.
    The real problem, sir, is how long it takes. So if I could 
ask for any support, sir, perhaps you may wish to put some time 
lines into when our recommendations need to be reacted upon in 
some way, shape or form. That would go a long way. Because 
unfortunately, too many times our recommendations will be out 
there for two and three and four and five years, some of which 
are nine and ten years. And that, sir, is much too long to have 
a gap in safety.
    Mr. Coble. I thank you.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Mica. Thank you. We would probably welcome a 
recommendation on that. It might be difficult, because 
sometimes you need more time to do a thorough investigation, 
not interfering with that time required. It might be something 
you could submit to the Committee.
    Mr. Carnahan, you had a question?
    Mr. Carnahan. Thank you, Mr. Chairman.
    I want to focus my questions to a couple of recommendations 
that came out of the Rand Report regarding the party process. I 
want to read a bit of their conclusions.
    It indicated that in order to leverage NTSB resources, I'll 
just read it here, ``the reliability of the party process has 
always had the potential to be compromised by the fact that the 
party most likely to be named to assist in an investigation is 
also likely to be named defendants in a related civil 
litigation. The inherent conflict of interest may jeopardize or 
be perceived to jeopardize the integrity of the NTSB 
investigation.''
    It went on further to say, ``The NTSB must augment the 
party process by tapping additional sources of outside 
expertise needed to resolve the conflict circumstances of a 
crash case. The NTSB's own resources and facilities must also 
be enhanced if the Agency's independence is to be assured.''
    I guess I'd first like to focus on the Agency's own 
resources where you see shortfalls that we can address through 
the process here in the Congress.
    Mr. Rosenker. Thank you, sir. Clearly, resources are a 
challenge for us. We're a small agency. Technology moves very, 
very quickly. And sometimes, catastrophic accidents will happen 
right on top of each other. It is amazing how long you can go 
without an accident and then just by some quirk of fate, one, 
two, three things will happen within a very short period of 
time, which does stretch our resources.
    But it's the technical end of what we are looking at where 
I think we need to make our greatest, if you will, strides. And 
that is in the newest and most advanced sides of technology. We 
need people that are in the areas, say, for example, of 
computer tool design. We need them in composites. We need them 
in electrical engineering that deals with the fly by wire 
aspects of aircraft. So we need that type of expertise.
    Mr. Carnahan. You're specifically referring to you need 
that type of expertise internally?
    Mr. Rosenker. Yes, sir, we do.
    Mr. Carnahan. Is that involved in any of your requests 
before the Congress?
    Mr. Rosenker. Well, it certainly would be included in our 
2008 and 2009 budget. For the 2007 budget, it's unfortunately 
the status quo at this time.
    Mr. Carnahan. The other piece of this is regarding 
additional sources of outside independent expertise to involve 
them in the process. Can you tell me what steps are being taken 
to do that?
    Mr. Rosenker. When there is a specific need for a technical 
expert that we do not have on our staff, we have funds to be 
able to contract, to be able to hire that consultant. And we do 
that, in some very complex cases. For example, American 587 was 
a very complex case. It was one of the most probably visible 
and catastrophic accident we had seen to date dealing with a 
composite material. And was there a question on whether the 
composite material failed or was it something else.
    So we used a significant amount of technical experts on 
that particular accident, including NASA and a lot of other 
highly, highly technical and highly competent technical experts 
to help us with that. That accident was completed, I believe it 
was last year. We came to a very good conclusion that was 
agreed to by everyone.
    Mr. Carnahan. Lastly with regard to these, has there been 
any discussion about how to better involve family 
representatives or experts in some appropriate way through the 
investigative process?
    Mr. Rosenker. We have our family assistance program which 
deals with, directly, on a day to day basis, with those that 
have lost loved ones in catastrophic accidents. We have 
experts, clearly, when we need them, participating in our 
program and of course the party system, we believe, works very 
well. It's not perfect, but recognizing that the parties are 
there to provide technical expertise that we may not have, it's 
all factual what they deal in. They are not involved in any of 
the analysis aspect of the investigation, only providing facts.
    So we believe it has worked fairly well, the system that 
has been in place for almost 40 years.
    Mr. Carnahan. Thank you very much. I would certainly 
welcome the opportunity to follow up with some written 
questions we may have at the conclusion of this hearing.
    Mr. Rosenker. Sir, I would be delighted to answer any of 
those.
    Mr. Mica. I thank the gentleman.
    Mr. Marchant.
    Mr. Marchant. Thank you. My question has to do with the 
fuel vapors and the fuel tanks in the transport category. I 
represent an area that includes DFW airport. On a recent tour 
out there, they were expressing some concern about some rules 
they thought might be deemed promulgated. Could you discuss 
that whole issue with me, please?
    Mr. Rosenker. Yes, sir. These are recommendations that came 
as a result of TWA flight 800. Success, unfortunately, is 
taking too much time. It has been nine years or so since we 
promulgated these recommendations. The FAA is now about ready 
to come up with the NPRM and they are doing what we have asked 
them to do in the long term solution. But they have failed in 
the short term solution. We believe that more can be done and 
should be promulgated through operational changes. Relatively 
simple operational changes would prevent this type of thing 
from happening. So we're getting half a loaf. That may not be 
good enough.
    Mr. Marchant. Okay, thank you.
    Mr. Mica. Ms. Millender-McDonald?
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Mr. Chairman, I look forward, and Ranking Member, thank you 
so much. But Mr. Chairman, I look forward to welcoming you 
again to California and to Long Beach during the district work 
period.
    Mr. Mica. Thank you. You caught me by surprise. We are 
coming out, I think the 20th, 19th and 20th, to southern 
California to look at some of the congestion in the aviation.
    Ms. Millender-McDonald. That is correct.
    Mr. Mica. Thank you for your invitation and we hope you 
will participate.
    Ms. Millender-McDonald. Thank you so much.
    Before I get to the questions, Mr. Chairman, today is 
International Women's Day. I have two women with me who are 
shadowing me today, from Afghanistan. We have some from Iraq. I 
would like to just introduce them. Habiba Danesh was the first 
woman to attend the University of Tatar. She studied 
biochemistry. She was also one of President Karzi's campaign 
managers. Habiba Danesh, will you please stand?
    And we have Sharifi Zormati, who is and was a television 
producer, anchor woman. She serves as an independent member on 
the transportation committee in Afghanistan. I just wanted to 
welcome them as they are here looking at us today.
    Mr. Mica. Thank you. We would like to welcome you and we 
hope you enjoy your visit. Today is fortunately a non-
controversial hearing. You ought to come back for the lively 
ones.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Mr. Rosenker, than you so much for your presentation this 
morning. The Chairman spoke to you about incursions, and 
certainly we have those in the Los Angeles area, at LAX as well 
as in the Long Beach airport. So I am very interested in 
knowing the different methodologies that you and FAA have and 
would like to perhaps get a report. We will try to pursue that 
from your office as well as FAA.
    Mr. Rosenker. Thank you. I can provide that in writing to 
you if you like.
    Ms. Millender-McDonald. Thank you very much.
    Mr. Rosenker. Yes, ma'am.
    Ms. Millender-McDonald. There was a recent article in the 
Washington Post that implied that NTSB has launched fewer 
general aviation accident investigations than in the past. In 
the past you've had more. I say this because the public wants 
to hear from you in terms of public hearings on these types of 
accident investigations. We know that you have had in excess of 
124,000 aviation accidents sine 1967.
    So are you intending to have more hearings so that the 
public, the flying public will understand what is going on? How 
are you going to address that given the recent article in the 
Washington Post?
    Mr. Rosenker. Thank you, ma'am. Let me begin with talking 
about how we have to steward our resources in getting on-scene 
to general aviation accidents. There are approximately 1,800 to 
1,900 GA accidents that occur every year. We, by law, will take 
a report, do a report, come up with a probable cause, and then 
provide that to the public.
    We look at approximately, we were looking at say in the 
beginning of 2001, approximately 75 percent of the fatal 
accidents. There are only something like 350 of those that 
occur, thank goodness, of the 1,900. We were going on-scene to 
approximately 350 of those accidents.
    Given the resources that we are dealing in today, and the 
backlog that we had at that time, at that time we had something 
close to 2,500 accident reports that were incomplete that were 
over six months old. That meant that we didn't know what had 
happened. A report had not been completed and provided a 
probable cause.
    At the same time, we were continuing to launch, so the 
backlog was growing. We made a conscious decision to begin the 
process of monitoring accidents where we believed the safety 
payback would be much more valuable by launching on that 
accident than one which appeared to us to be not quite as 
valuable or that we knew for example the answer before we would 
even go. Remember that somebody is going to that accident. 
Primarily it is the FAA that will go that accident, and provide 
us information. We will then follow up with witness interviews. 
We may, depending upon the character of that accident, ask for 
an engine tear-down, and look at materials. We will do a host 
of things even though we may not have been physically at that 
site to give an accurate final determination. And sometimes, we 
were able to make recommendations.
    We've gone from 75 percent in 2001 to today where we go to 
62 percent of the GA accidents, fatals, 62 percent, a reduction 
of approximately 13 percent. But for that, we have been able to 
close the 2,500 open investigations that we had in 2001 to 
today, to less than 400 open investigations. What we're able to 
do now is make, by virtue of looking at the trends and having 
our people have more time for analysis, we're able to make 
recommendations to prevent these kinds of things from being 
repetitive, from happening again.
    We even have plans to automate a system even more which 
will enable us to go directly to a data base with the 
descriptions of the kinds of things that we are seeing at the 
accidents that will then flag us to say, one happened here in 
Ohio, one happened here in Illinois, one happened here in 
Pennsylvania. And we can begin to put those together where I 
believe we will have a higher quality report in a more timely 
fashion and do more to be able to prevent the accidents from 
happening again.
    Ms. Millender-McDonald. That's an excellent account of what 
you do. The public is not always cognizant of that, though. It 
would seem to me like the reports you put out, those that 
aren't fatal, but the others that you seek to report on. Of 
course, the fatal ones you do come before the public. But the 
others, if you could just make an announcement, that this is a 
report from that accident, just a public announcement, it 
certainly seems to me that it would help the public in 
understanding the role and the complexity of your job.
    Mr. Rosenker. It's an excellent idea, ma'am. We do publish 
everything we do on our web site. All of those accident reports 
are available on the web site. The general aviation community 
is religious about reading our web site, I can tell you, we get 
calls every day about them.
    Ms. Millender-McDonald. The last question that I have, Mr. 
Chairman and Ranking Member, is does video need to be a 
standard in the black box technology, and will that video 
provide the aviation industry with a better understanding of 
what causes crashes and can it be used to enhance security?
    Mr. Rosenker. Let me speak to the safety issues, which I 
have more expertise and are clearly within my portfolio. We 
believe that the video imaging would be a significant help to 
our investigators and speed the process in coming to a probable 
cause. It is a piece of evidence which right now is missing. We 
have been on the record for a long time of how important this 
would be to solving a lot of mysteries that to date we may not 
be able to solve as well as we would like to.
    So that is an improvement we have been asking the FAA to 
work on, along with giving us two hour black boxes, along with 
additional battery life of an additional 10 minutes on these 
boxes, so that after the power to them stops, they are 
continuing to gather information for us. So it's up to the FAA. 
We've told them what we wanted, and it's on our most wanted 
list.
    Ms. Millender-McDonald. How close are they to providing 
this for you, do you know?
    Mr. Rosenker. Unfortunately, I can't give you an exact 
answer of how close. It does take them a while. They do study, 
they do read our material, they do take it seriously. They just 
may not be as responsive as we would like them to be in the 
time frame that we would like it to be.
    Ms. Millender-McDonald. Mr. Chairman, I would like to go on 
record that we perhaps seek the, inquire with the FAA as to how 
soon this type of technology will be put in place. Of course, 
we know that that's a cost incurred. But it is vital, perhaps, 
for our understanding of crashes and the security nature of it.
    Thank you, Mr. Chairman and Ranking Member.
    Mr. Mica. I thank the gentlelady.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman, Mr. Administrator.
    During the last reauthorization, we had lengthy discussion 
and some controversy over one particular issue which is, NTSB 
often, as a result of investigating an accident or something 
that has raised safety concerns, makes proposals to the 
agencies involved, FAA and others, that actions be taken. Ms. 
Millender-McDonald was just pointing out one of those.
    My recollection is that instead of requiring some sort of 
mandate that they respond to each and every one, we came up 
with these so-called hot issues list or something like that.
    How many items are, let's say, let's just narrow it down to 
the FAA. How responsive have they been? How many items are 
pending on your hot button list or whatever you call it list? 
What's it called?
    Mr. Rosenker. Sir, it's called our most wanted list. I 
happen to have a copy for your perusal right here, sir.
    Mr. DeFazio. Great.
    Mr. Rosenker. You asked how many issues there are, and I'll 
give you the large issues, as opposed to a specific number of 
recommendations. There are five major issue areas on our most 
wanted list that deal with the FAA. One is the reduction of 
dangers to aircraft flying in icy conditions, that's a large 
one. Mr. Marchant talked about the elimination of flammable 
fuel air vapors in fuel tanks on transport category aircraft. 
Runway incursions, which we also covered a little earlier 
today. The Congresswoman--
    Mr. DeFazio. Ms. Millender-McDonald.
    Mr. Rosenker. Thank you. Dealt with the issues of audio and 
data recorders, and also dealt with the video. And finally, one 
that the FAA has flat out said they are not going to do, they 
just flat out said they won't, and that's the required 
restraint systems for children under the age of two. They told 
us this last year. We're still going to keep it on our most 
wanted list, because we believe it's an important, important 
regulation which would give our most vulnerable the same safety 
that everybody else has on the airplane.
    Mr. DeFazio. Do you feel this system is adequate to at 
least engender some scrutiny and response or time line from the 
Agency? Is there something we could do to maybe turn up the 
heat a little bit? Particularly, I agree with you on the 
restraint systems. We have been trying for years on this 
Committee to mandate it. They relied upon one lame study that 
wasn't a study that was actually a proprietary survey of 
whether people would fly or drive their car, and then sort of 
the bogus argument that somehow the children would be more 
endangered in the car, where they would be in a restraint 
system, by Federal law. I guess maybe it's State by State--I 
don't know of any States that don't have that.
    And I share your frustration. So is there something we 
could do, or is it, do you think this is about as far as we can 
take this issue?
    Mr. Rosenker. Sir, I can tell you, there's not much more I 
can do other than continue to be indignant and pound my hand on 
the table and do press conferences and be angry and tell them 
they are missing the point here. Sir, you have significantly 
more power than I have.
    Mr. DeFazio. Well, I'm in the minority. But yes, I 
certainly would be happy if the Chairman would like to take 
that issue up again and look at a mandate.
    Let me ask another question, and this one is a little more 
hypothetical. Do you believe, particularly right now, we have a 
number of airlines that are in financial distress, do you 
believe that you can draw a line between safety concerns and 
commercial operations? Do you think such a line exists, or it's 
a wall, it's impenetrable and we would never see anything 
happening on the commercial side that could jeopardize safety?
    Mr. Rosenker. Sir, that's a very interesting question. I 
believe the people that operate the commercial aircraft that we 
fly on today are very serious about maintenance and very 
serious about safety. They recognize the cost if in fact 
something goes wrong. They recognize not only is it a cost in 
finance but in human costs and in public relations cost.
    So they are working very hard, I personally believe, to do 
everything they can to make sure their aircraft are maintained 
properly. There are rules and regulations about maintenance 
that the FAA enforces and promulgates. Thus far we've been very 
fortunate and I believe we have not seen anything to give us 
any indication that people on a routine basis at the major 
carrier level are doing anything to take maintenance shortcuts 
or safety shortcuts.
    Mr. DeFazio. Have you applied any scrutiny to the 
outsourcing? It appears to me that we are about back where we 
were with Value Jet, that the amount of outsourcing and the 
anemic FAA oversight of outsourcing has led us back to those 
days where we're kind of dependent upon, it isn't a really 
rigorously regulated system. But I suppose you wouldn't get 
into doing oversight of that until there's an accident that's a 
result of it, and then we would find out that there are 
problems with it.
    Mr. Rosenker. You're exactly right, sir.
    Mr. DeFazio. All right. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Any additional questions?
    Well, we want to thank you, Mr. Rosenker, for your 
testimony. Fortunately, you don't have a very controversial 
reauthorization, but hopefully there are some improvements we 
can make into the reauthorization, incorporate into the 
reauthorization.
    We look forward to working with you in that regard. We will 
keep the hearing record open for a period of two weeks. Without 
objection, so ordered. We may have some additional questions we 
will submit for the record.
    With that, there being no further business before the 
Aviation Subcommittee, I'll adjourn this hearing. Thank you.
    [Whereupon, at 11:16 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8268.001
    
    [GRAPHIC] [TIFF OMITTED] T8268.002
    
    [GRAPHIC] [TIFF OMITTED] T8268.003
    
    [GRAPHIC] [TIFF OMITTED] T8268.004
    
    [GRAPHIC] [TIFF OMITTED] T8268.005
    
    [GRAPHIC] [TIFF OMITTED] T8268.006
    
    [GRAPHIC] [TIFF OMITTED] T8268.007
    
    [GRAPHIC] [TIFF OMITTED] T8268.008
    
    [GRAPHIC] [TIFF OMITTED] T8268.009
    
    [GRAPHIC] [TIFF OMITTED] T8268.010
    
    [GRAPHIC] [TIFF OMITTED] T8268.011
    
    [GRAPHIC] [TIFF OMITTED] T8268.012
    
    [GRAPHIC] [TIFF OMITTED] T8268.013
    
    [GRAPHIC] [TIFF OMITTED] T8268.014
    
    [GRAPHIC] [TIFF OMITTED] T8268.015
    
    [GRAPHIC] [TIFF OMITTED] T8268.016
    
    [GRAPHIC] [TIFF OMITTED] T8268.017
    
    [GRAPHIC] [TIFF OMITTED] T8268.018
    
    [GRAPHIC] [TIFF OMITTED] T8268.019
    
    [GRAPHIC] [TIFF OMITTED] T8268.020
    
    [GRAPHIC] [TIFF OMITTED] T8268.021
    
    [GRAPHIC] [TIFF OMITTED] T8268.022
    
    [GRAPHIC] [TIFF OMITTED] T8268.023
    
    [GRAPHIC] [TIFF OMITTED] T8268.024
    
    [GRAPHIC] [TIFF OMITTED] T8268.025
    
    [GRAPHIC] [TIFF OMITTED] T8268.026
    
    [GRAPHIC] [TIFF OMITTED] T8268.027
    
    [GRAPHIC] [TIFF OMITTED] T8268.028
    
    [GRAPHIC] [TIFF OMITTED] T8268.029
    
    [GRAPHIC] [TIFF OMITTED] T8268.030
    
    [GRAPHIC] [TIFF OMITTED] T8268.031
    
    [GRAPHIC] [TIFF OMITTED] T8268.032
    
    [GRAPHIC] [TIFF OMITTED] T8268.033
    
    [GRAPHIC] [TIFF OMITTED] T8268.034
    
    [GRAPHIC] [TIFF OMITTED] T8268.035
    
    [GRAPHIC] [TIFF OMITTED] T8268.036
    

</pre></body></html>
